                                  INSPECTION




INSPECTION REPORT:
FREEDOM OF INFORMATION ACT




Report No.: ER-IS-MOA-0004-2010    October 2010
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR



                                                                                  OCT 25 20tO

Memorandum

To:            Secretary Salazar

From:          Mary L. Kendall
               Acting Inspector General

Subject:       Inspection Report: Freedom of Information Act
               (Assignment No. ER-IS-MOA-0004-20l0)

         We received a congressional request on August 23 , 2010, asking the Office ofInspector
General to conduct an inquiry into the Department of the Interior (Department) Freedom of
Information Act (FOIA) Office. Specifically, they asked us to determine whether political
appointees are made aware of information requests and, if so, the extent to which they have a
role in request reviews or decision-making.

        We found that political appointees may be aware ofFOIA requests, but in most cases do
not have a role in the request reviews or decision-making. We did find, however, six outstanding
requests submitted by a Los Angeles Times reporter back in 2004 that may have had direct
political involvement. The unusual processing of these six requests and the considerable delays
involved could indicate political appointee involvement. We were, however, unable to obtain
definitive proof of such involvement. Overall, we did not find evidence of pervasive direct
involvement in the request reviews or decision-making.

       If you have any questions or need additional information, please do not hesitate to contact
Kimberly Elmore, Assistant Inspector General for Audits, Inspections, and Evaluations, at 202-
208- 5512.




                               O ffi ce of Inspector Gene ral I W ashington. DC
Introduction

         We performed this inspection in response to a congressional request. The
request tasked the Office of Inspector General with conducting an inquiry into the
Department of the Interior (Department) Freedom of Information Act (FOIA)
Office. Specifically, we were asked to determine whether political appointees are
made aware of information requests and, if so, the extent to which they have a
role in request reviews or decision-making. To respond to this request, we
performed an inspection in accordance with the “Quality Standards for
Inspections” endorsed by the Council of Inspectors General on Integrity and
Efficiency. Specifically, we interviewed officers from the Department FOIA
Office and each FOIA office within the various Department bureaus and reviewed
FOIA regulations, a FOIA tracking system, and select documents.

Background

        The organizational structure of the Department’s FOIA Program is
similar to the decentralized structure of the Department itself. The Department’s
FOIA website states that this structure offers the Department the most “effective
and efficient system for compliance with all FOIA requirements, not just those
that govern responses to individual requests.”

       The Department’s diverse functions and the sensitive, high profile issues
with which it deals, generate a large and increasing number of FOIA requests
each year.

Department-level:

        The Department-level FOIA Program is responsible for developing
polices and guidelines, providing support, and maintaining the Department’s
electronic tracking system.

Bureau/Office-level:

        The Department has decentralized its FOIA operations among 11 bureaus
and offices, each of which has a FOIA Officer leading its separately managed
and resourced FOIA Program. These FOIA Officers are responsible for tracking,
managing and responding to FOIA requests for records in their organization’s
possession and control, and administering their organization’s FOIA programs.




                                                                                    2
Findings

       Overall, we found that political appointees may be aware of FOIA
requests but in most cases they do not have a role in the request reviews or
decision-making. In the case of the Deepwater Horizon incident, the Department
has taken steps to coordinate responses to eliminate duplication. As a result,
bureaus communicate incoming FOIA requests with various levels within the
Department. Even so, although the political appointees may be aware of the
requests, we did not find evidence of pervasive direct involvement in the request
reviews or decision-making.

        We did find, however, six outstanding requests that may have had direct
political involvement. A Los Angeles Times reporter submitted these requests,
dated January 13-16, 2004, to the Department FOIA Office. The reporter
requested communications between the White House and high-ranking Interior
officials on various politically sensitive topics.

        The Office of the Secretary (OS) FOIA Officer informed us that the
Department took 2 years to prepare the original responses to these requests. The
responses were then sent to the White House, where they remained for another 2
years before being returned to the Department’s Office of the Solicitor (SOL),
where they remained for yet another 2 years. Recently, the OS FOIA Officer and
the SOL revisited the requests and decided to release the responses, which were
sent to the White House for review in July 2010, where they remain.

       The unusual processing of these six requests and the considerable delays
involved could indicate political appointee involvement. We were, however,
unable to obtain definitive proof of such involvement.

Conclusion

        Overall, the Department’s FOIA process has remained free from political
influence. In rare circumstances that involved coordination with outside agencies,
political involvement may have hindered the responses.




                                                                                    3
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in
            government concern everyone: Office
           of Inspector General staff, Departmental
            employees, and the general public. We
               actively solicit allegations of any
           inefficient and wasteful practices, fraud,
                and mismanagement related to
            Departmental or Insular Area programs
                and operations. You can report
               allegations to us in several ways.



By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                   800-424-5081
                    Washington Metro Area               703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
